No. 20-5324
IN THE SUPREME COURT OF THE UNITED STATES
IN RE JEREMIAH YBARRA, Petitioner
vs.
UNITED STATES OF AMERICA, Respondent.

MOTION FOR LEAVE OF COURT TO FILE A
SUPPLEMENTAL BRIEF TO THE PENDING—
WRIT'OF MANDAMUS.

JEREMIAH YBARRA.
Reg#55024-280
FMC ROCHESTER
PMB 4000
Rochester, MN, 55903-4000
Pro Se Litigant

RECEIVED
SEP 17 2020
LERK
gFErce.O
C
5UF,HemE OURT, U.S.

BACKGROUND
On June 24, 2020, this Honorable Court placed the aforementioned
case on the docket for August 11, 2020. On or ;around August 11,
2020, the respondent waived the right to respond.
ARGUMENT
Petitioner submited Writ of Mandamus requesting the District Court
to submit the requested discovery of the case. Petitioner was
denied. Then appealed that decision to the Court of Appeals by
way..of Mandamus that was also denied. Petitioner is presenting actual innocence of the offense that he was charged with—On the original Writ of Mandamus, petitioner states that there was evidence
that was not submited for consideration by the jury. Petitioner was
not able to attain the evidence due to being in transfer. Therefore
petitioner would like to be able to present the following documents
for the consideration by.:this Honorable Court for relief. A Writ of
Mandamus can be considered as a Writ of Certiorari. Petitioner is
requesting that this Court consider the following argument and the
documents that are submited. The documents submited are the evidence that was not shown to the jury. The other evidence is still in
the possession of the government. The pictures that were shown to
the jury are the pictures that petitioner has been trying to attain
from the respondent. The main question is: How is a Under cover
agent supposed to remember that the supposed drugs are the drugs
that he purchased from the persohohe purchased them from? On the
pictures shown to the jury, there was no sign of a heat sealed bag
or any markings or initials from the person that put them into
evidence. The agents made recordings that were not even the petitioner. In the documents, the Forensic Data Analysts, states that the

recordings were edited and that the files were made after the
supposed day of the offense. The files were made in the month of
August and the offense charged is in July. Petitioner has pleaded
his innocence since day one but petitioner feels that since he is
of the poor class and has no way of being able to hire or retain
an actual lawyer that would have fought for his rights that he is
not being heard. Petitioner has been going through mental anguish
by losing his mother and not being able to be there for his father
that is not really able to do for himself. There is a Grave Miscariage Of Justice when the police and the government are able to
gain convictions in violations of the CONSTITUTION-and get away
with it. Petitioner has evidence where the agents are shown lieing
about what actually happened. Petitioner cannot gain this evidence
due to being incarcerated. Another question is:-Does ethics allow
a prosecutor to be able to be a witness at the Grand Jury and then
be able to prosecute the case? The prosecutOr himself stated in the
affidavit that he did not present the case to the Grand Jury. Then
in another affidavit that was submited by the prior counsel Ellen
Smith, that the prosecutor that prosecuted the case was an expert
witness and testified at the Grand Jury about the supposed drugs
that were in question. The recording that was heard was never heard
or examined by the analyst that analysed the other fake recordings.
Petitioner hopes to convince' this Honorable Court to stand for J,
Justice and help petitioner gain the relief from this inJustice.
Petitioner is being harmed by the people that were put to protect
the citizens againstardsguided or vindictive prosecutions.

(2)

CONCLUSION
Wherefore premises considered, petitioner request!.s that this
Honorable Court consider the argument and documentation presented
by the petitioner and give the relief that is deserved and merited.
IT IS SO PRAYED.
Respectfully Submitted,

Dated:9-6-2020.

Jer iah Ybarra
Re 550 4-280
FMC ROCHESTER.
PPMB 4000
Rochester, MN, 55903-4000

CERTIFICATE OF SERVICE
I, Jeremiah Ybarra, declare under the penalty of perjury that the
foregoing is true and correct to the best of my knowledge and I
also certify that this correspondence was placed into the mailbox
located at this facility on the 6th day of September of 2020 to
be deposited into the United States Postal Service to be hand del;
ivered to this Honorable Court.
Je
iah Ybarra
Re #55024-280

(3)

FORENSIC
DATA
ANALYSTS

Two files were received, stored on a DVD labeled [

illegible

File One was named "Buy-Walk Op bug 2016-07-29_17-02411 EDT.wav", indi

g the following:

•
that it contained audid in the WAVE/RIFF format
that it was created on 29 July, 2016 at 5:02:01 PM Eastern Daylight Time,
and that it had been edited.
File Two was named "Buy-Walk Op bug 2016-08-03_15-08-10 EDT.wav", indi ting the following:
that it contained audio in the WAVE/RIFF format
that it was created on 3 August, 2016 at 3:08:10 PM Eastern Daylight T
and that it had been edited.
In further evidence of editing, the dates of the files were, respectively, 8/1/2016
8/8/2016 at 1643 hrs.

1342 hrs and

File contents were examined and audited. Sound quality seemed to be generally or, indicating a small
microphone or poorly adjusted recording parameters. Large swathes of the recor
apparently had
been volume-suppressed and it appeared that others had volume increased to po is of distortion,
although such distortion may have been. due to original mic'ing. Visual Analysis o the audio a nta
clearly show effects of editing.
I'd say that, after listening to both tapes, it sounds like a group of junior-high ki trying to pull some
sort of prank on someone outside their group. The person they're pranking wants o help them, but
doesn't want to take their money and go make the buy. He offers to tell them whe e to go, then he offers
to ride with them and point out the place. They harass him until he finally agrees do what they ask
him to do.
Here's what I don't understand: they finally convince this guy to go up to the ho e, buy whatever drugs
they want, when he finally does so, they later arrest him, but not the guys in the use who actually had
and sold the drugs. Mention is made that they had done this guy a favor and now e owed them__ what
favor did they do for him? When, and why?
Bottom line, I wouldn't trust the recordhigi— they're not original, they're edited c pies_

0,

T
-.a
CY)
,1:5
O

.11

co

